TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Centralized Lien Unit Properly Filed
                 Federal Tax Liens but Needs to Minimize the
                 Number of and Improve Controls Over Liens
                       Returned by Recording Offices



                                           July 31, 2007

                              Reference Number: 2007-30-122




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     July 31, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – The Centralized Lien Unit Properly Filed Federal
                                  Tax Liens but Needs to Minimize the Number of and Improve Controls
                                  Over Liens Returned by Recording Offices (Audit # 200630007)

 This report presents the results of our review of the Internal Revenue Service (IRS) Centralized
 Lien Processing Unit. The overall objective of this review was to determine whether the IRS had
 taken appropriate actions to ensure the Centralized Lien Processing Unit is operating effectively.
 This audit was part of our audit coverage of the Small Business/Self-Employed Division and was
 included in our Fiscal Year 2006 Annual Audit Plan.

 Impact on the Taxpayer
 A Federal Tax Lien gives the IRS a legal claim to a taxpayer’s property for the amount of his or
 her tax debt. Failure to file and properly record a Notice of Federal Tax Lien in the recording
 office1 may jeopardize the Federal Government’s priority right against other creditors. It is
 extremely important to protect the interests of the Federal Government, creditors, and taxpayers
 in general.

 Synopsis
 Filing a Notice of Federal Tax Lien is necessary to establish priority rights against other
 creditors. It is critical that recording offices ensure Federal Tax Liens are timely filed and
 properly recorded. The IRS Centralized Lien Processing Unit was implemented in October 2005
 and has gone through numerous changes in an attempt to improve its overall effectiveness. The

 1
     Recording offices are the Clerks of the Circuit Court where the IRS records its Notices of Federal Tax Lien.
                  The Centralized Lien Unit Properly Filed Federal Tax Liens but
                  Needs to Minimize the Number of and Improve Controls Over
                              Liens Returned by Recording Offices


IRS has taken actions to improve the effectiveness of this unit, but additional work is still
needed.
The lien processing unit generally prepared Federal Tax Liens accurately and timely. Our
review of a statistically valid sample of 150 Federal Tax Liens showed unit employees accurately
and timely prepared the Federal Tax Liens. However, we found problems associated with the
sorting and mailing of the Notices of Federal Tax Lien and the paying of lien fees to the
recording offices, which caused the recording offices not to timely file and properly record the
Federal Tax Liens. These problems were a major reason recording offices returned
approximately 29,000 lien documents to the IRS to be reworked.
The IRS needs to reduce the volume of returned lien documents by improving the process of
paying lien fees. In addition, procedures need to be established to ensure returned lien
documents rejected by the recording offices are properly controlled and corrected. Correcting
returned lien documents takes additional staffing and processing time, which delay the filing or
releasing of the Federal Tax Liens. Processing delays can jeopardize the collection of money
owed to the Federal Government and the timely release of Notices of Federal Tax Lien after the
taxpayers satisfy their tax obligations.

Recommendations
The Director, Collection, should pursue other options for paying lien fees to recording offices for
processing lien documents and implement a process to ensure lien fee changes are timely and
properly updated. The Director, Campus Compliance Services, should establish criteria for
measuring the accuracy and timeliness of returned lien documents and ensure returned lien
batches are properly maintained so the cases can be easily retrieved and reworked.

Response
The Commissioner, Small Business/Self-Employed Division, agreed with our four
recommendations and will take or has taken corrective actions. IRS management will pilot a lien
fee payment process directly connecting lien payments to document issuance and develop
procedures to ensure lien batches are properly maintained. In addition, IRS management has
developed new procedures for monitoring, reworking, and returning lien documents to the
county recording offices accurately and timely
However, management disagreed with our outcome measures regarding 78 Federal Tax Liens
that were not filed or timely filed, thus jeopardizing collection of $3.4 million. Management
stated the official IRS database for recording liens and releasing lien information is the




                                                                                                   2
                    The Centralized Lien Unit Properly Filed Federal Tax Liens but
                    Needs to Minimize the Number of and Improve Controls Over
                                Liens Returned by Recording Offices


Automated Lien System,2 not a third-party database. We agree that Accurint3 is a third-party
research tool and may not be totally accurate. However, our research showed discrepancies
among all systems because none of the systems were completely accurate. Absent actual visits
to recording offices, in our opinion, Accurint is the most reliable source available to verify lien
filing information. Therefore, we believe the 58 liens may not have been filed and the collection
of $2.1 million may be in jeopardy. We also believe the 20 liens may not have been filed timely
because the Automated Lien System showed it took an average of 329 days for the liens to be
filed at the recording offices, thereby jeopardizing the collection of $1.3 million. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at 202-622-5894.




2
  This is a comprehensive database that prints Notices of Federal Tax Lien, stores taxpayer information, and
documents all lien activity.
3
  Accurint is a vendor service that accesses public records nationwide.




                                                                                                               3
                      The Centralized Lien Unit Properly Filed Federal Tax Liens but
                       Needs to Minimize the Number of and Improve Controls Over
                                   Liens Returned by Recording Offices




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Lien Filing Process Was Successfully Centralized, and the New
          Unit Properly Filed Federal Tax Liens .........................................................Page 3
          The Process of Paying Lien Fees Needs Improvement to Reduce
          the Volume of Lien Documents Returned by Recording Offices.................Page 4
                    Recommendations 1 and 2: ................................................Page 6

          Procedures Are Needed to Ensure Returned Lien Documents
          Rejected by the Recording Offices Are Properly Controlled and
          Timely Reworked..........................................................................................Page 7
                    Recommendation 3:........................................................Page 10

                    Recommendation 4:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measures...............................................................Page 16
          Appendix V – Management’s Response to the Draft Report .......................Page 18
      The Centralized Lien Unit Properly Filed Federal Tax Liens but
       Needs to Minimize the Number of and Improve Controls Over
                   Liens Returned by Recording Offices




                     Abbreviations

ALS            Automated Lien System
BSV            Billing Support Voucher
IRS            Internal Revenue Service
                   The Centralized Lien Unit Properly Filed Federal Tax Liens but
                    Needs to Minimize the Number of and Improve Controls Over
                                Liens Returned by Recording Offices




                                            Background

A Federal Tax Lien gives the Internal Revenue Service (IRS) a legal claim to a taxpayer’s
property for the amount of his or her tax debt. The IRS sends the Notices of Federal Tax Lien to
recording offices1 that are responsible for recording the liens in public records. Usually the
Federal Government is not the only creditor to whom a taxpayer owes money. Other creditors
may also hold liens or secured rights against a taxpayer’s assets in the amount of his or her
indebtedness.
By filing the Notice of Federal Tax Lien, the IRS publicly notifies other creditors that the
Federal Government has a claim against all of a taxpayer’s property and any property rights
owned or acquired after the lien is filed. This Notice is used by the courts to establish priority in
certain situations, such as bankruptcy proceedings or sales of real estate.
It is critical that recording offices ensure Federal Tax Liens are timely filed and properly
recorded. Failure to file and properly record a Notice of Federal Tax Lien in the recording office
may jeopardize the Federal Government’s priority rights against other creditors. This is
extremely important to protect the interests of the Federal Government, creditors, and taxpayers
in general.
Once a Federal Tax Lien is filed at the recording office, it cannot be released until the taxes,
penalties, interest, and recording fees are paid in full. The taxpayer must pay all fees that a State
or other jurisdiction charges to file and release the lien. These fees will be added to the amount
owed. The IRS should issue a Release of the Notice of Federal Tax Lien within 30 calendar days
after the taxpayer satisfies the tax due by paying the debt. In 2005, the IRS consolidated 33 lien
operations located throughout the United States into the nationwide Centralized Lien Processing
Unit at the Cincinnati, Ohio, Campus.2
The IRS pays lien fees using two methods: convenience checks (imprest checks3) and direct
billing. Imprest checks are used to provide prepayment of the fees when lien documents are sent
to the recording offices. Direct billing uses estimates for bulk lien documents to be processed at
the recording offices.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Small
Business/Self-Employed Division Office of Collection Policy and the Centralized Lien
Processing Unit in Cincinnati, Ohio, during the period July 2006 through March 2007. The audit


1
  Recording offices are the Clerk of the Circuit Court where the IRS records its Notices of Federal Tax Lien.
2
  Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  Imprest checks are payments issued by IRS cashiers to pay lien fees.
                                                                                                           Page 1
                The Centralized Lien Unit Properly Filed Federal Tax Liens but
                 Needs to Minimize the Number of and Improve Controls Over
                             Liens Returned by Recording Offices



was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                      Page 2
                 The Centralized Lien Unit Properly Filed Federal Tax Liens but
                  Needs to Minimize the Number of and Improve Controls Over
                              Liens Returned by Recording Offices




                                Results of Review

The Lien Filing Process Was Successfully Centralized, and the New
Unit Properly Filed Federal Tax Liens
In 2005, the IRS consolidated 33 lien operations located throughout the United States into a
nationwide Centralized Lien Processing Unit at the Cincinnati, Ohio, Campus. Employees in
this Unit send out the Notice of Federal Tax Lien to over 4,000 local recording offices for filing.
In Fiscal Year 2006, the IRS filed 629,813 liens throughout the country. The lien processing unit
processes requests for all Federal Tax Liens and releases. Employees handle telephone inquiries
and correspondence regarding lien filings and releases from taxpayers, their representatives, and
recording offices.
To implement the centralized process, management established an action plan to ensure
numerous activities were implemented and coordinated. Management held biweekly conference
calls to monitor the actions being accomplished. This included contacting and coordinating
actions with the numerous recording offices, which is quite an extensive task because recording
offices use procedures that can vary significantly. Management also established an oversight
process including reviews that were conducted jointly by Headquarters Operations and the Office
of Collection Policy in June 2006 and February 2007. As a result, numerous changes to
procedures and policies were made as the organization stood up.
The IRS has taken actions to improve the effectiveness of the lien processing unit and generally
prepared Federal Tax Liens accurately and timely. We selected a statistically valid sample of
150 Federal Tax Liens and determined the information recorded on them (taxpayer’s name,
address, tax period, and assessed amount) was correct. Federal Tax Liens were also prepared
within 5 workdays of receipt of the lien request.
While management effectively implemented the centralized process, we found problems
associated with the sorting and mailing of the Notices of Federal Tax Lien and the paying of lien
fees to the recording offices. These problems contributed to the recording offices returning
approximately 29,000 lien documents to the lien processing unit to be reworked. In some
instances, recording offices incorrectly returned lien documents to the lien processing unit.
The lien processing unit relies on overtime to complete its regular duties. This trend will
continue if the IRS does not improve its processing to reduce the workload. We have identified
potential methods to increase the effectiveness of the lien processing unit by making the
workload manageable and by reducing the volume of returned lien documents that need to be
corrected.


                                                                                            Page 3
                   The Centralized Lien Unit Properly Filed Federal Tax Liens but
                    Needs to Minimize the Number of and Improve Controls Over
                                Liens Returned by Recording Offices



The Process of Paying Lien Fees Needs Improvement to Reduce the
Volume of Lien Documents Returned by Recording Offices
The IRS needs to develop solutions to reduce the number of lien documents rejected by
recording offices and returned to the lien processing unit for rework. Generally, the IRS uses
two methods of payment for lien fees: imprest checks and direct billing. These are the most
common methods of payment and represent the methods preferred by most of the recording
offices, except those in Alaska. Imprest checks and direct billing are each used at about
2,000 local recording offices. Under the direct billing process, payments are made after the lien
documents are processed by the recording offices and invoices are certified. This process is
lengthy, and months can pass before recording offices receive their money. Therefore, more
recording offices are requesting imprest checks because the payments are included with the lien
documents when the documents are received for processing.
Liens, releases, and other lien documents are filed in more than 4,000 recording offices
throughout the United States. Most lien documents (primarily Notices of Federal Tax Lien and
releases) are generated using the Automated Lien System (ALS).4 Every Tuesday and Thursday,
lien documents are printed from the ALS and sorted into batches by State and local recording
office locations. A billing support voucher (BSV) is printed for each recording office; it shows a
summary identifying the total number of lien documents, lien fees, and total cost the IRS will
pay to the recording office for processing the lien documents in the batches. Recording offices
should receive a BSV with all lien batches.
After the IRS assembles the lien batches and prepares the BSV, it sends them to 1 of the
4,000 local recording offices for processing. These lien documents for filing must be reviewed
to ensure the appropriateness of the documents. The billing process is very time consuming and
labor intensive. As part of its tax collection activities, the IRS reported it had filed and released a
combined total of 805,973 Notices of Federal Tax Lien in Calendar Year 2006. With the high
volume of lien documents the IRS prepares, errors occur. These errors have caused recording
offices to return to the IRS entire lien batches unprocessed. Failure to file and properly record a
Notice of Federal Tax Lien in a recording office may jeopardize the Federal Government’s
priority rights against other creditors.
The IRS developed a “reject log” to control the flow of returned lien batches. These batches are
received by the clerical unit, which prepares the reject logs and captures certain information such
as the reason the batches were rejected. The clerical unit forwards the returned lien documents
to one of the five lien teams for correction. After the returned lien documents have been
corrected, the batches are given to the clerical unit, which resends them to the recording offices
for processing.


4
 The ALS is a comprehensive database that prints Notices of Federal Tax Lien, stores taxpayer information, and
documents all lien activity.
                                                                                                          Page 4
                   The Centralized Lien Unit Properly Filed Federal Tax Liens but
                    Needs to Minimize the Number of and Improve Controls Over
                                Liens Returned by Recording Offices



Between January and September 2006, the IRS recorded receipt of 4,299 reject batches. We
estimate these batches represent approximately 29,0005 lien documents returned from recording
offices because of problems with the sorting and mailing of Notices of Federal Tax Lien and the
paying of lien fees. We reviewed the reject logs for these 4,299 batches and found
approximately 1,375 (32 percent) were returned to the lien processing unit because of fee-related
issues, including incorrect lien fee amounts and missing or unsigned imprest checks. Also
during this period, cashiers voided 2,234 imprest checks that had to be reissued. Most of the
other 2,924 lien batches were returned because:
    •   Lien releases had incorrect or no recording information.
    •   Documents were missing information.
    •   Documents had been sent to the wrong recording offices.
    •   Liens were not filed by the recording office because the taxpayer did not reside in the
        county, even though he or she may have owned property there.
    •   Liens were returned for which recording fee amounts had increased but the recording
        office had not notified the IRS previously.
Each recording office sets the fee amounts for filing and releasing a Federal Tax Lien. Many of
the fee issues occurred because the fee schedules were not updated to show the correct amount.
This happened for several reasons: (1) recording offices did not always notify the IRS of fee
changes and, (2) when the IRS was notified of fee changes, the lien processing unit did not
always ensure the fee schedules were updated. When the lien processing unit receives
notification of changes to a fee schedule from a recording office, the changes are given
immediately to the manager of the team responsible for filing with that local recording office.
The updates are then given to the ALS Coordinators so the fees can be revised on the ALS. The
information needs to also be given to the team preparing the lien batches for that recording
office, to use when updating the BSV. Other fee problems occurred because the lien processing
unit did not enclose imprest checks when issuing lien batches to recording offices.
To address the fee issue, the IRS could implement a prepayment process through which it would
pay a portion of the lien fees at the beginning of the fiscal year based on an estimate of lien
documents to be processed by each recording office. Each month, recording offices would return
invoices that the IRS certifies and the accounts would be adjusted, a process similar to that being
used by recording offices in Alaska. The main difference is the recording offices receive an
initial payment prior to processing the lien documents and, in each subsequent month, their
accounts are adjusted after the invoices are certified. The only requirement is that the recording
offices agree to be paid through electronic funds transfer.



5
 This estimate is based on the following calculation. Our sample of 31 reject batches contained 209 lien documents,
for an average of 6.742 lien documents per reject batch. We multiplied 6.742 x 4,299 reject batches for a total of
28,984.
                                                                                                           Page 5
                 The Centralized Lien Unit Properly Filed Federal Tax Liens but
                  Needs to Minimize the Number of and Improve Controls Over
                              Liens Returned by Recording Offices



This prepayment method would benefit both the IRS and the recording offices. The IRS would
eliminate the use of imprest checks, and recording offices would receive payments prior to
processing lien documents. This method would also reduce the number of telephone calls
received from recording offices inquiring about their payments. By our estimation, using the
prepayment option would also eliminate approximately 12,000 returned lien documents related
to fee problems. While the Federal Government would incur some interest-related costs for the
prepayment method, the IRS could reduce the overtime being spent to rework the returned cases.
In addition, the IRS could ensure lien priority is not lost because, at present, a recording office
does not always file the liens when it returns them to the IRS.

Recommendations
The Director, Collection, should:
Recommendation 1: Pursue other options for paying lien fees to recording offices for
processing lien documents. One option to consider is a prepayment process using electronic
funds transfer through which the recording offices are partially paid for their services at the start
of the fiscal year; then, each month, recording offices would return invoices that the IRS certifies
and the accounts would be adjusted.
       Management’s Response: IRS management agreed with this recommendation.
       Although the Office of Chief Counsel and Office of Procurement determined Federal
       Government agencies are precluded from prepaying for goods and services, management
       agreed to pilot a lien fee payment process directly connecting lien payments to document
       issuance. The electronic payment testing, followed by a pilot, is scheduled to begin in
       San Bernardino, California. This fully automated method of lien fee payment will be
       based on a program interface built between the ALS and the Integrated Financial System
       in Beckley, West Virginia. The automated payment process will eliminate the current
       Centralized Case Processing-Lien Unit paper imprest method of making payments and
       will have the ability (through electronic funds transfer) to directly pay all recording
       offices’ banks from the Integrated Financial System.
Recommendation 2: Implement a process to ensure lien fee changes are timely and properly
updated once the IRS receives notification of change from the recording office. The Director
should designate an individual to ensure the changes are made and reflect the correct amounts.
       Management’s Response: IRS management agreed with this recommendation,
       stating they will conduct reviews to ensure the ALS fee tables are updated timely. A
       written report will be submitted to the Operations Manager semi-annually. This
       responsibility has been assigned to the ALS Coordinator.




                                                                                              Page 6
                The Centralized Lien Unit Properly Filed Federal Tax Liens but
                 Needs to Minimize the Number of and Improve Controls Over
                             Liens Returned by Recording Offices



Procedures Are Needed to Ensure Returned Lien Documents Rejected
by the Recording Offices Are Properly Controlled and Timely
Reworked
Generally, if lien documents are incomplete or contain errors, recording offices are unable to
process them and return entire lien batches to the lien processing unit for resolution. The
returned batches are handled by multiple employees before the lien documents are resolved and
returned to the recording offices for processing. This process can take several months and delays
the filing or releasing of the Federal Tax Liens. The delays occur because the lien processing
unit has not established any time periods for resolving and resending corrected lien documents to
the recording offices. Specifically:
   •   Reject logs were not properly maintained to effectively control the returned lien
       documents.
   •   Returned lien documents were not properly resolved, and no time periods were
       established for resolving and returning them to the recording offices.

Reject logs were not properly maintained to effectively control the returned lien
documents
The lien processing unit did not adequately control the returned lien documents. To manage the
returned lien documents, the unit uses reject logs to track the flow of the cases. However, the
reject logs were not always properly completed. Our review of the reject logs showed they were
incomplete because the lien processing unit employees did not always enter the following
information for returned documents:
   •   Date received.
   •   Reason for return.
   •   Date resolved and returned to the recording office.
The omitted information prevented management from tracking the flow of the returned
documents. Inadequate controls over the volume of returned lien documents prevented the lien
processing unit from maintaining files appropriately. In addition, the unit does not have
sufficient cabinet space to file the returned lien documents, and the documents were placed in
bins on the floor. Therefore, the returned documents were not easily retrievable, and it was
difficult for the lien processing unit employees to locate, correct, and return them to the
recording offices. Files should be properly maintained to ensure lien documents are retrievable.
Without properly completed reject logs, management is unable to manage the resolution and
tracking of the returned lien documents effectively, identify areas needing improvement, and
provide feedback to the staff. To improve the effectiveness of the lien operation, the lien
processing unit needs better procedures for controlling and processing returned lien documents.

                                                                                           Page 7
                    The Centralized Lien Unit Properly Filed Federal Tax Liens but
                     Needs to Minimize the Number of and Improve Controls Over
                                 Liens Returned by Recording Offices



Returned lien documents were not properly resolved, and no time periods were
established for resolving and returning them to the recording offices
Returned lien documents were not accurately and timely resolved, which causes additional
processing issues for the lien processing unit. Between October 10 and October 12, 2006, we
selected a judgmental sample of 31 rejected lien batches, with a total of 209 returned lien
documents, and determined the lien processing unit did not properly resolve or document
86 returned lien documents (41 percent). The 86 cases involved the following errors:
    •   Missing BSVs (six cases).
    •   Not reworked (seven cases).
    •   Duplicate payment of lien fees (19 cases).
    •   Resolution not timely documented (54 cases).6
Without adequate controls over case files and BSVs, the lien processing unit is unable to
reconcile the reworked lien batches to the original documents to determine whether any
discrepancies exist and whether lien fees were paid. For example, we identified two lien filings
for four taxpayers because the BSV was reworked in error. The lien processing unit is required
to maintain file copies of the BSVs and annotate any discrepancies on them. Also, if the unit
contacts a recording office regarding any discrepancy, it is required to annotate its findings on
the file copy of the BSV.
To evaluate the impact of not timely and properly working returned lien documents, we also
reviewed IRS computer systems and Accurint7 and determined 111 (53 percent) of the 209 cases
were not properly reflected on these systems.
    •   Accurint showed 58 Notices of Federal Tax Lien were not filed at the recording offices.8
    •   Accurint showed 14 Notices of Federal Tax Lien were not released at the recording
        offices after the taxpayers had satisfied their tax liabilities.
    •   Recording information for 20 Notices of Federal Tax Lien had not been entered in the
        ALS within 90 calendar days of the lien prepared date.
    •   Incomplete or no court recording information had been entered in the ALS for
        six Notices of Federal Tax Lien.
    •   No lien release indicator was shown on the Integrated Data Retrieval System9 for
        13 cases.


6
  Case resolution took more than 45 calendar days.
7
  Accurint is a vendor service that accesses public records nationwide.
8
  The ALS showed the liens were filed at the recording offices.
9
  This is an IRS computer system capable of retrieving or updating stored information; it works in conjunction with
a taxpayer’s account records.
                                                                                                            Page 8
                      The Centralized Lien Unit Properly Filed Federal Tax Liens but
                       Needs to Minimize the Number of and Improve Controls Over
                                   Liens Returned by Recording Offices



Our Accurint research showed that, for 78 of the 111 cases, Federal Tax Liens were either not or
untimely filed at the recording offices, which could jeopardize the collection of $3.4 million
owed to the Federal Government. Also, certificates of release were not found in recording
offices, which may cause additional burden on 14 taxpayers.10
Improper or untimely resolution of returned lien documents can delay the filing of liens at the
recording offices. If lien filings are delayed and the recording information is not entered in the
ALS within 90 calendar days of the lien prepared date, a mismatch will occur and the lien will
appear on the “lost lien report.” The lost lien report identifies each prepared lien older than
90 calendar days for which there is no record that the lien was filed at the recording office. As of
March 27, 2007, the lost lien report contained 63,322 liens that need to be resolved, some more
than 10 years old.
To resolve the lost lien inventory, on December 4, 2006, the Office of Collection Policy issued a
memorandum instructing the lien processing unit not to replace liens that are over a specified
age. It also instructed the unit to issue replacement liens for those lost liens meeting specified
age and dollar limits. The lien processing unit has determined these procedures should eliminate
about 31,300 of the 63,322 liens from the lost lien inventory.
Processing delays generate additional telephone inquiries from taxpayers, their representatives,
recording offices, and revenue officers regarding information about the liens. During Fiscal
Year 2006, the lien processing unit received more than 3,000 telephone calls per week;
additional resources and overtime have been authorized to handle new issues to prevent
backlogs.

Management reviews identified similar issues
Management has performed two reviews of the lien processing unit activities. The reviews were
conducted jointly by Headquarters Operations and the Office of Collection Policy in June 2006
and February 2007. Normally, these reviews are an analysis to determine if the IRS timely
notified taxpayers, business partners, spouses, and taxpayer representatives of the filing of
Notices of Federal Tax Lien.
The scope of these reviews was expanded to provide a status update of the unit’s operation. The
draft reports of the IRS reviews showed results similar to those identified in our review. For
example, controls over returned lien documents are lacking. In reviewing 50 reject logs, the IRS
found 12 batches were sent to the wrong counties and 14 batches were sent back for not having
imprest checks attached. In addition, the IRS identified batches of lien documents on the floor
that contained imprest checks that were not properly safeguarded.




10
     See Appendix IV for details.
                                                                                             Page 9
                The Centralized Lien Unit Properly Filed Federal Tax Liens but
                 Needs to Minimize the Number of and Improve Controls Over
                             Liens Returned by Recording Offices



Recommendations
The Director, Campus Compliance Services, should:
Recommendation 3: Establish criteria for measuring the accuracy and timeliness of the
processing of returned lien documents. For example, record the dates to track the processing of
the returned lien documents from date of receipt to date of rerouting to the recording offices.
       Management’s Response: IRS management agreed with this recommendation. The
       Centralized Lien Unit has created a new Rejected Document Form and implemented new
       procedures for accurately monitoring, reworking, and returning documents to county
       recorders’ offices. The Department Manager will review the open Rejected Document
       Forms monthly and issue a written report to the Operations Manager on trends in rejected
       work and timeliness of resolving issues.
       However, management disagreed with our outcome measures regarding 78 Federal Tax
       Liens that were not filed or timely filed, thus jeopardizing collection of $3.4 million.
       Management stated the official IRS database for recording liens and releasing lien
       information is the ALS, not a third-party database (i.e., Accurint).
       Office of Audit Comment: We agree that Accurint is a third-party research tool and
       may not be totally accurate. However, the IRS uses Accurint to verify certain
       information regarding the filing and releasing of Federal Tax Liens. We also relied on
       Accurint to verify the lien information. In addition, we researched IRS computer systems
       to verify the lien information for the 209 cases that needed to be reworked by the lien
       processing unit and returned to the recording offices to be processed.
       Our research showed discrepancies among all systems because none of the systems were
       completely accurate. For example, the ALS research showed no lien filed and Accurint
       showed a lien filed. Based on its comment, the IRS would rely on its official computer
       system and the result would show no lien filed. This disparity can occur because the
       recording office may not have returned the recorded lien information or the IRS has not
       entered the recorded information into the ALS, when in fact the lien has actually been
       filed.
       Another example occurred on lien releases. Lien releases are systemically generated, but
       the IRS does not know whether a recording office actually released a lien. Typically,
       once taxpayers satisfy their tax obligations, the lien releases are systemically generated
       and the ALS is updated, showing the lien release date. Unless a recording office is
       physically visited, Accurint is researched, or the IRS receives a complaint from a
       taxpayer, the IRS does not know whether a lien was actually released. The ALS could
       show a lien has been released, even though it may still be filed at the recording office.



                                                                                         Page 10
               The Centralized Lien Unit Properly Filed Federal Tax Liens but
                Needs to Minimize the Number of and Improve Controls Over
                            Liens Returned by Recording Offices



      Absent actual visits to recording offices, in our opinion, Accurint is the most reliable
      source available to verify lien filing information. Therefore, we believe the 58 liens may
      not have been filed and the collection of $2.1 million may be in jeopardy. We also
      believe the 20 liens may not have been filed timely because the ALS showed it took an
      average of 329 days for the liens to be filed at the recording offices, thereby jeopardizing
      the collection of $1.3 million.
Recommendation 4: Ensure returned lien batches are properly maintained so the cases can
be easily retrieved and reworked.
      Management’s Response: IRS management agreed with this recommendation,
      stating they will implement procedures to ensure (1) all issues on a returning BSV are
      resolved prior to closing a Rejected Document record and (2) the completed Rejected
      Document Form is associated with the BSV file. The Department Manager will review a
      10 percent sample of the closed Rejected Document Forms to ensure copies have been
      associated with the BSV files. A written report will be provided to the Operations
      Manager on trends and timeliness of resolving issues.




                                                                                          Page 11
                    The Centralized Lien Unit Properly Filed Federal Tax Liens but
                     Needs to Minimize the Number of and Improve Controls Over
                                 Liens Returned by Recording Offices



                                                                                                     Appendix I


          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS had taken appropriate
actions to ensure the Centralized Lien Processing Unit is operating effectively. To accomplish
our objective, we:
I.       Determined whether Notices of Federal Tax Lien were filed timely and accurately.
         A. Obtained an ALS1 extract containing 504,020 lien records for the first 10 months of
            Fiscal Year 2006.
         B. Selected a statistical sample of 150 liens for our case review. We used attribute
            sampling to calculate the minimum sample size (n), which we rounded to 150:
              n = (Z2 p(1-p))/(A2)
              Z = Confidence Level:            90 percent (expressed as 1.65 standard deviation)
              p = Expected Rate of Occurrence: 5 percent
              A = Precision Rate:              ±3 percent
             1. Validated the ALS extract by comparing the sampled records to online data from
                the Integrated Collection System2 and the Automated Collection System3 because
                Small Business/Self-Employed Division management stated they had no data
                checks ensuring reliability, completeness, and accuracy.
             2. Determined whether the lien processing unit prepared the Notices of Federal Tax
                Lien timely. For each sample case, we compared the lien prepared date from the
                ALS extract to the lien request date obtained from the Integrated Collection
                System, the Automated Collection System, Referral Forms, emails, or faxes to
                determine whether Notices of Federal Tax Lien were created within 5 calendar
                days, as required by IRS guidelines.




1
  The ALS is a comprehensive database that prints Notices of Federal Tax Lien, stores taxpayer information, and
documents all lien activity.
2
  The Integrated Collection System is a computer system with applications designed around each of the main
collection tasks such as opening a case, assigning a case, building a case, performing collection activity, and closing
a case.
3
  The Automated Collection System is a telephone contact system through which telephone assistors collect unpaid
taxes and secure tax returns from delinquent taxpayers who have not complied with previous notices.
                                                                                                              Page 12
                      The Centralized Lien Unit Properly Filed Federal Tax Liens but
                       Needs to Minimize the Number of and Improve Controls Over
                                   Liens Returned by Recording Offices



                3. Determined whether the liens were properly notated on the ALS as being filed at
                   the recording offices.4 In those instances for which the recording information did
                   not exist, we traced back to the lost lien report and determined the status of the
                   lien filings.
           C. From October 10-12, 2006, selected a judgmental sample of 31 reject packages
              containing 209 lien documents returned by the recording offices and determined
              whether the lien documents were reworked according to the Internal Revenue Manual
              guidelines and accurately prepared. We used a judgmental sample because the IRS
              did not control the receipt of returned lien documents. The returned lien documents
              were stored on the floor, and we could not readily identify the documents that needed
              to be reworked; therefore, we were unable to determine the population. Also, the test
              was conducted to show control weaknesses for which management needed to take
              corrective action.
II.        Determined whether IRS management had implemented an effective quality review
           program to ensure Notices of Federal Tax Lien were accurately prepared.
           A. Reviewed IRS procedures and determined whether they adequately measure the
              accuracy of the Notices of Federal Tax Lien.
           B. Interviewed managers and determined the process used to ensure Notices of Federal
              Tax Lien were accurately prepared.
           C. Reviewed checksheets to determine whether sufficient information was recorded and
              the Notices of Federal Tax Lien were accurate.
           D. Determined whether a sufficient number of cases were reviewed and an accuracy
              problem existed.
           E. Reviewed trend, feedback, or problem reports prepared and determined the
              sufficiency of the information gathered to address the problems.
III.       Evaluated the controls implemented over the cashier operation for processing lien
           payments and paying lien fees.
           A. Discussed procedures with management.
           B. Obtained and analyzed established policies and procedures for making lien payments
              and for processing taxpayer payments.
           C. Determined whether managers performed operational reviews.
           D. Discussed with management the benefits and drawbacks of centralizing the cashier
              operation.

4
    Recording offices are the Clerks of the Circuit Court where the IRS records its Notices of Federal Tax Lien.
                                                                                                              Page 13
                The Centralized Lien Unit Properly Filed Federal Tax Liens but
                 Needs to Minimize the Number of and Improve Controls Over
                             Liens Returned by Recording Offices



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Edward Gorman, Audit Manager
Marcus Sloan, Lead Auditor
Darryl Roth, Senior Auditor
Denise Gladson, Auditor
Stephen Elix, Student Trainee




                                                                                        Page 14
               The Centralized Lien Unit Properly Filed Federal Tax Liens but
                Needs to Minimize the Number of and Improve Controls Over
                            Liens Returned by Recording Offices



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 15
                      The Centralized Lien Unit Properly Filed Federal Tax Liens but
                       Needs to Minimize the Number of and Improve Controls Over
                                   Liens Returned by Recording Offices



                                                                                                   Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•      Increased Revenue – Potential; not filing 58 Federal Tax Liens at the recording offices1 could
       jeopardize the collection of $2.1 million owed to the Federal Government (see page 7).

Methodology Used to Measure the Reported Benefit:

From a judgmental sample of 31 rejected lien packages containing 209 lien documents, we
identified 58 Federal Tax Liens totaling $2.1 million that were not shown as being filed at the
recording offices. A Notice of Federal Tax Lien gives the IRS a legal claim to a taxpayer’s
property for the amount of his or her tax debt. Not filing Federal Tax Liens at the recording
offices may jeopardize the Federal Government’s priority right against other creditors.

Type and Value of Outcome Measure:

•      Increased Revenue – Potential; not timely filing 20 Federal Tax Liens at the recording offices
       could jeopardize the collection of $1.3 million owed to the Federal Government (see page 7).

Methodology Used to Measure the Reported Benefit:

From a judgmental sample of 31 rejected lien packages containing 209 lien documents, we
identified 20 liens that took an average of 329 days for the liens to be filed at the recording
offices, thereby jeopardizing the collection of $1.3 million.

Type and Value of Outcome Measure:

•      Taxpayer Burden – Potential; 14 taxpayers did not have their Federal Tax Liens released at
       the recording offices after satisfying their tax obligations (see page 7).



1
    Recording offices are the Clerks of the Circuit Court where the IRS records its Notices of Federal Tax Lien.
                                                                                                              Page 16
                 The Centralized Lien Unit Properly Filed Federal Tax Liens but
                  Needs to Minimize the Number of and Improve Controls Over
                              Liens Returned by Recording Offices



Methodology Used to Measure the Reported Benefit:

From a judgmental sample of 31 rejected lien packages containing 209 lien documents, we
identified 14 taxpayers that did not have their Federal Tax Liens released at the recording offices
after satisfying their tax obligations. The IRS issues a Release of the Notice of Federal Tax Lien
within 30 calendar days after the taxpayer satisfies the tax due by paying the debt. Taxpayer
burden could be affected because a Federal Tax Lien gives the IRS a legal claim to a taxpayer’s
property for the amount of the tax debt that the taxpayer no longer owes.




                                                                                           Page 17
    The Centralized Lien Unit Properly Filed Federal Tax Liens but
     Needs to Minimize the Number of and Improve Controls Over
                 Liens Returned by Recording Offices



                                                       Appendix V

Management’s Response to the Draft Report




                                                             Page 18
The Centralized Lien Unit Properly Filed Federal Tax Liens but
 Needs to Minimize the Number of and Improve Controls Over
             Liens Returned by Recording Offices




                                                         Page 19
The Centralized Lien Unit Properly Filed Federal Tax Liens but
 Needs to Minimize the Number of and Improve Controls Over
             Liens Returned by Recording Offices




                                                         Page 20
The Centralized Lien Unit Properly Filed Federal Tax Liens but
 Needs to Minimize the Number of and Improve Controls Over
             Liens Returned by Recording Offices




                                                         Page 21
The Centralized Lien Unit Properly Filed Federal Tax Liens but
 Needs to Minimize the Number of and Improve Controls Over
             Liens Returned by Recording Offices




                                                         Page 22
